                                                              ADVISORY




    RECOVERY OVERSIGHT ADVISORY

    Bureau of Indian Affairs Contract Procurement Personnel




Report No.: ROO-ROA-BIA-2010-2010                             October2010
               OFFICE OF 

               INSPECTOR GENERAL 

               U.S.DEPARTME T OF THE INTERIOR

                                                                              OCT 1   <)
                                                                                      u    2010

To: 	              Chris Henderson
                   Senior Advisor to the Secretary for Economic Recovery and Stimulus
                        c£.~~
From:        rf1obert A. Knox
               Assistant Inspector General for Recovery Oversight

Subject: 	     Recovery Oversight Advisory - Bureau of Indian Affairs Contract Procurement
               Personnel (ROO-ROA-BrA-20l0-20l0)

         This advisory, regarding Bureau of Indian Affairs (BrA) contract procurement personnel,
is part of our ongoing efforts to oversee and ensure the accountability of funding appropriated to
the U.S. Department of the Interior (001) in the American Reinvestment and Recovery Act of
2009 (Recovery Act).

       We received an allegation in February 2010, regarding a contractor's employee who
reportedly lacked the requisite experience for the position for which the individual was
contracted. The complainant stated that the contractor's employee was reported to have the
experience equivalent to a Senior Contracting Specialist, but his skill level was comparable to
low-level clerical staff. The contractor billed BrA for the services of a Senior Contracting
Specialist, yet BrA did not receive the skills and experience of one.

        Our review found no evidence that the contractor deliberately misrepresented its
employee's experience and abilities, nor did we uncover any evidence that BIA officials were
derelict in their duties in tern1S of monitoring the contractor's performance. We reviewed the
contract file for this acquisition and found that the BrA requirements for a Senior Contract
Specialist were clearly articulated in the contract. To qualify for this position and pay rate, a
person was required to have at least eight years in government contracting and a Bachelor's
Degree in Business Administration or Accounting. The education requirement could be waived if
the individual had in excess of 12 years of Government contracting experience.

        We reviewed the resume of the individual in question and found that he reportedly had in
excess of 12 years of government contracting experience and a Bachelor's Degree in Finance.
Nevertheless, when we attempted to interview the complainant and obtain more information, we
learned that the contract employee had been replaced, after BrA officials expressed their
concerns to the contractor about its employee's experience and abilities. Although the
complainant did not feel that BrA officials voiced their concerns to the contractor as quickly as
they should have, BIA did take the necessary steps to have this individual replaced with a more
suitable employee.




                                 Recovery Oversight Office I Washington. DC
        We refer this advisory to you as it addresses the complainant’s concern and will be
posted on our Web site (www.doioig.gov/recovery/) and on Recovery.gov. We commend BIA
officials for taking appropriate steps to address this issue; we do not require a response.
Information contained in this advisory may also be included in our semiannual report to
Congress. Please do not hesitate to contact me if you have any questions.

cc: 	   Deputy Secretary, Department of the Interior
        Assistant Secretary — Policy, Management, and Budget
        Acting Director, Office of Financial Management
        Director, Office of Acquisition and Property Management
        Department GAO/ OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Director, Bureau of Indian Affairs
        Recovery Coordinator, Bureau of Indian Affairs




                                                                                              2
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in 

            government concern everyone: Office

           of Inspector General staff, Departmental

            employees, and the general public. We 

               actively solicit allegations of any

           inefficient and wasteful practices, fraud, 

                and mismanagement related to 

            Departmental or Insular Area programs 

                and operations. You can report

               allegations to us in several ways.




By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                     800-424-5081
                    Washington Metro Area                 703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
